      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General


                                                                           Washington, D.C. 20201




September 22, 2011

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Ryan White Part B Funding and the Payer-of-Last-Resort Requirement
               (A-05-10-00088)


The attached final report provides the results of our review of Ryan White Part B funding and the
payer-of-last-resort requirement.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-05-10-00088 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    REVIEW OF RYAN WHITE
    PART B FUNDING AND THE
     PAYER-OF-LAST-RESORT
         REQUIREMENT




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-05-10-00088
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990,
P.L. No. 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest source
of funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration (HRSA) administers the CARE Act.

Title II (Part B) of the CARE Act (42 U.S.C. §§ 300ff-21–300ff-38) provides grants to States
and territories to fund the purchase of medications through AIDS Drug Assistance Programs
(ADAP) and other health care and support services. Part B grant funds may be used only for
individuals determined to meet medical and financial eligibility requirements. Additionally,
pursuant to 42 U.S.C. § 300ff-27(b)(6)(F), these grant funds may not be used to pay for items or
services that are eligible for coverage by other Federal, State, or private health insurance. This
provision is commonly referred to as the “payer-of-last-resort” requirement.

OBJECTIVES

Our objectives were to (1) summarize the results of prior audits that determined whether certain
States complied with the Part B payer-of-last-resort requirement and whether the States used the
Part B funds only for eligible clients and to (2) determine whether HRSA could improve its
oversight to ensure that States comply with payer-of-last-resort and eligibility requirements.

SUMMARY OF FINDINGS

Five of the nine States reviewed claimed costs for prescriptions dispensed to individuals who had
other health insurance that would have covered the drugs, and two States claimed costs for
prescriptions dispensed to clients for whom the respective States did not maintain adequate
documentation of ADAP eligibility. The States claimed unallowable costs totaling $33.4 million
because they did not have adequate controls to ensure compliance with the Part B payer-of-last-
resort requirement or did not follow their eligibility procedures.

HRSA could improve its oversight to ensure that States comply with payer-of-last-resort and
eligibility requirements. We identified best practices in two States that HRSA could use to help
States improve compliance with the statutory requirement that Ryan White funds not be used
when private health insurance can reasonably be expected to pay for an item or service.

Because HRSA has provided inconsistent guidance on eligibility recertifications, States vary
widely in how frequently and to what extent they recertify client eligibility.




                                                 i
RECOMMENDATIONS

We recommend that HRSA:

   •   require States to work with their State Medicaid agencies to identify Ryan White clients
       who obtain Medicaid coverage during the period of their Part B coverage;

   •   require States to process retroactive Medicaid claims for individuals eligible for Medicaid
       at the time Ryan White funds were used to pay their claims and credit the Ryan White
       program for any Medicaid payment; and

   •   ensure that funds are not used to pay for drugs that are eligible for coverage by other
       Federal, State, or private health insurance by specifically:

          o providing technical assistance to States on best practices for implementing the
            statutory payer-of-last-resort mandate regarding private insurance, such as
            contracting with an outside vendor to perform data matches to identify clients
            with private health insurance and initiate recovery actions, and

          o requiring that ADAP recertifications be performed consistently and uniformly
            across States and not be limited to comparing ADAP eligibility with Medicaid
            eligibility files.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.................................................................................................................1

     BACKGROUND ..............................................................................................................1
       Part B Grant Funds......................................................................................................1
       Office of Inspector General Reviews of Ryan White Title II Funding.......................1

     OBJECTIVES, SCOPE, AND METHODOLOGY ..........................................................1
       Objectives ...................................................................................................................1
       Scope ...........................................................................................................................1
       Methodology ...............................................................................................................1

FINDINGS AND RECOMMENDATIONS .......................................................................2

     NONCOMPLIANCE WITH PART B REQUIREMENTS
       Payer-of-Last-Resort Requirement Not Met ...............................................................2
       AIDS Drug Assistance Programs Eligibility ..............................................................3

     NEED FOR IMPROVED OVERSIGHT..........................................................................4
       Best Practices Regarding Identification of Other Insurance ......................................4
       Inconsistent Application of Recertification Criteria ..................................................4

     RECOMMENDATIONS ..................................................................................................4

     HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS..........5

APPENDIXES

     A: PRIOR OFFICE OF INSPECTOR GENERAL REVIEWS

     B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990,
P.L. No. 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest source
of funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration (HRSA) administers the CARE Act.

Part B Grant Funds

Title II (Part B) of the CARE Act (42 U.S.C. §§ 300ff-21–300ff-38) provides grants to States
and territories to fund the purchase of medications through AIDS Drug Assistance Programs
(ADAP) and other HIV/AIDS health care and support services, such as outpatient care, home
and hospice care, and case management. Part B grant funds may be used only for individuals
determined to meet medical and financial eligibility requirements. Additionally, pursuant to
42 U.S.C. § 300ff-27(b)(6)(F), these grant funds may not be used to pay for items or services that
are eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer-of-last-resort” requirement.

Office of Inspector General Reviews of Ryan White Title II Funding

We conducted nine reviews to determine whether State and territory agencies (States) complied
with the Part B payer-of-last-resort requirement and whether the States used the Part B funds
only for eligible clients. (See Appendix A for a list of our reviews and review periods.)

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) summarize the results of prior audits that determined whether certain
States complied with the Part B payer-of-last-resort requirement and whether the States used the
Part B funds only for eligible clients and to (2) determine whether HRSA could improve its
oversight to ensure that States comply with payer-of-last-resort and eligibility requirements.

Scope

Our nine prior reviews covered various periods from April 1, 2002, through March 31, 2007.
We conducted fieldwork at the respective States and HRSA offices in Rockville, Maryland.

Methodology

To accomplish our objectives, we analyzed the findings and recommendations from our prior
audits, reviewed Federal requirements and HRSA policies on program oversight, and discussed



                                                1
compliance with payer-of-last-resort and eligibility requirements with HRSA officials. We also
performed additional work to determine if any of the nine States had implemented a 6-month
recertification process.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Five of the nine States reviewed claimed costs for prescriptions dispensed to individuals who had
other health insurance that would have covered the drugs, and two States claimed costs for
prescriptions dispensed to clients for whom the respective States did not maintain adequate
documentation of ADAP eligibility. The States claimed unallowable costs totaling
$33.4 million1 because they did not have adequate controls to ensure compliance with the Part B
payer-of-last-resort requirement or did not follow their eligibility procedures.

HRSA could improve its oversight to ensure that States comply with payer-of-last-resort and
eligibility requirements. We identified best practices in two States that HRSA could use to help
States improve compliance with the statutory requirement that Ryan White funds not be used
when private health insurance can reasonably be expected to pay for an item or service.

Because HRSA has provided inconsistent guidance on eligibility recertifications, States vary
widely in how frequently and to what extent they recertify client eligibility.

NONCOMPLIANCE WITH PART B REQUIREMENTS

Payer-of-Last-Resort Requirement Not Met

Part B of the CARE Act stipulates that grant funds not be used to pay for items or services that
are eligible for coverage by other Federal, State, or private health insurance. Specifically,
42 U.S.C. § 300ff-27(b)(6)(F)) states:

        [T]he State will ensure that grant funds are not utilized to make payments for any
        item or service to the extent that payment has been made, or can reasonably be
        expected to be made, with respect to that item or service—(i) under any State
        compensation program, under an insurance policy, or under any Federal or State




1
  The estimated unallowable costs for Florida and Pennsylvania are based on sample results for clients who had
other insurance or were ADAP ineligible. The specific dollar amounts associated with either the payer-of-last-resort
requirement or ADAP eligibility were not determinable.



                                                         2
          health benefits program; or (ii) by an entity that provides health services on a
          prepaid basis. 2

In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS 3
Program Policy Guidance No. 2 on June 1, 2000 (and included in section IV of HRSA’s CARE
Act Title II Manual (2003)), reiterates the statutory requirement that “funds received ... will not
be utilized to make payments for any item or service to the extent that payment has been made,
or can reasonably be expected to be made ...” by sources other than Part B funds. The guidance
then provides: “At the individual client level, this means that grantees and/or their
subcontractors are expected to make reasonable efforts to secure other funding instead of CARE
Act funds whenever possible.”

Florida, Illinois, New Jersey, Pennsylvania, and Puerto Rico claimed unallowable costs for
prescriptions dispensed to individuals who had other health insurance (Medicaid and other public
or private health insurance plans) that would have covered the drugs. The other health insurance
plans had primary payment responsibility for these prescriptions.

States did not bill Medicaid or other insurance plans because they did not have adequate
procedures for identifying when to bill other insurance plans that would have covered the drugs.
At least one State had not developed procedures to bill covered drugs to other insurance plans.
Another State’s procedures did not identify beneficiaries who received similar services covered
by Medicaid. In addition, three States failed to retroactively bill the State Medicaid agencies for
ADAP drug costs incurred since the dates of the individuals’ Medicaid applications.

AIDS Drug Assistance Programs Eligibility

Pursuant to 42 U.S.C. § 300ff-26(b)), to be eligible to receive assistance from a State under
Part B of the CARE Act, an individual must: “(1) have a medical diagnosis of HIV disease; and
(2) be a low-income individual, as defined by the State.” 4 According to HRSA’s ADAP Manual,
section II, chapter I (2003), States are responsible for determining whether patients meet the
medical and financial eligibility requirements for enrollment in the ADAP.

Florida and Pennsylvania claimed unallowable costs for Part B funding for prescriptions
dispensed to clients for whom the States did not follow their eligibility procedures. Pennsylvania
claimed costs for individuals who did not meet the income eligibility requirement. Both Florida
and Pennsylvania failed to maintain adequate documentation of ADAP eligibility. In both


2
  The Ryan White HIV/AIDS Treatment Modernization Act of 2006 (2006 Amendments), §§ 204(c)(1)(A) and
(c)(3), P.L. No. 109-415 (Dec. 19, 2006), redesignated this provision as 42 U.S.C. § 300ff-27(b)(7)(F) and amended
subparagraph (ii) to prohibit the State from using these grant funds for any item or service that should be paid for
“by an entity that provides health services on a prepaid basis (except for a program administered by or providing the
services of the Indian Health Service).”

3
    DSS is the Division of Service Systems, a component of HRSA’s HIV/AIDS Bureau.

4
    The 2006 Amendments struck out “HIV disease” wherever it appeared and inserted “HIV/AIDS.”


                                                          3
States, some case folders did not contain documentation of an HIV/AIDS diagnosis. In Florida,
some files lacked documentation of income eligibility.

NEED FOR IMPROVED OVERSIGHT

Best Practices Regarding Identification of Other Insurance

States are required to ensure that Ryan White grant funds are not used when an individual has
insurance that can reasonably be expected to pay for the item or service. We identified practices
in two States that HRSA could use in its outreach efforts to help States improve compliance with
the payer-of-last-resort requirement. In response to our audit, Pennsylvania contacted private
insurance companies and found that the clients’ private insurance would have covered the drugs
paid by Part B. In addition, New Jersey contracted with an outside vendor to perform data
matches to identify clients with private health insurance. The contractor reviewed for third-party
liability by matching ADAP clients against a database that included government plans,
commercial insurance, casualty insurance, and other third-party payers and initiated actions to
recover payments made for ADAP clients who had other health insurance coverage.

Inconsistent Application of Recertification Criteria

HRSA’s ADAP Manual, section V.1 (2003) and DSS Program Policy Guidance No. 6 (June 1,
2000) (included in section IV of HRSA’s Care Act Title II Manual (2003)) both state that
“[e]very State should establish and implement procedures for ADAP client re-certification on a
periodic basis ....” HRSA informed us that each Ryan White Part B grant states that grantees
must implement an ADAP recertification process, at a minimum, every 6 months to ensure that
the program serves only eligible clients. A fact sheet issued by HRSA in August 2008 describes
in general terms the Ryan White HIV/AIDS program and states: “All States and Territories are
required to implement an ADAP recertification process every 6 months to ensure that only
eligible clients are served.” However, a HRSA official noted that recertification every 6 months
may not be feasible because of resource limitations. Additionally, this official stated that HRSA
has informed some States that the recertification requirement will be satisfied if the State
compares the ADAP client file with State Medicaid eligibility files.

Based on our limited review of State policies and regulations, we found that three States
currently require recertifications every 6 months; however, others require annual recertifications,
and one State requires recertifications only once every 3 years. Additionally, in place of a
6-month recertification, two other States match client eligibility with Medicaid eligibility files at
least monthly.

RECOMMENDATIONS

We recommend that HRSA:

   •   require States to work with their State Medicaid agencies to identify Ryan White clients
       who obtain Medicaid coverage during the period of their Part B coverage;




                                                  4
   •   require States to process retroactive Medicaid claims for individuals eligible for Medicaid
       at the time Ryan White funds were used to pay their claims and credit the Ryan White
       program for any Medicaid payment; and

   •   ensure that funds are not used to pay for drugs that are eligible for coverage by other
       Federal, State, or private health insurance by specifically:

          o providing technical assistance to States on best practices for implementing the
            statutory payer-of-last-resort mandate regarding private insurance, such as
            contracting with an outside vendor to perform data matches to identify clients
            with private health insurance and initiate recovery actions, and

          o developing and enforcing guidance to help ensure that ADAP recertifications are
            performed consistently and uniformly across States and are not limited to comparing
            ADAP eligibility with Medicaid eligibility files.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                5
APPENDIXES
     APPENDIX A: PRIOR OFFICE OF INSPECTOR GENERAL REVIEWS

                                                      Costs That Did Not
                                                      Meet Payer-of-Last-
                                                        Resort and/or
    State or                                              Eligibility
   Territory      Review Number   Review Period         Requirements

California        A-09-09-00037   April 1, 2003, to                  $0
                                   June 30, 2006

Florida           A-04-08-06002   April 1, 2003, to           4,400,613
                                  March 31, 2006

Illinois          A-05-08-00052   April 1, 2003, to                 808
                                  March 31, 2006

Maryland          A-03-08-00551   April 1, 2003, to                   0
                                  March 31, 2006

New Jersey        A-02-08-02007   April 1, 2003, to           2,498,819
                                  March 31, 2006

New York          A-02-08-02006   April 1, 2003, to                   0
                                  March 31, 2006

Pennsylvania      A-03-08-00552   April 1, 2004, to           2,162,998
                                  March 31, 2007

Puerto Rico       A-02-06-02000   April 1, 2002, to          24,340,789
                                  March 31, 2005

Texas             A-06-08-00022   April 1, 2003, to                   0
                                  March 31, 2006


Total                                                       $33,404,027
                                                                                                                Page 1 of5


    APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION 

                           COMMENTS 





(       ~
    .. ..   DIPARTiIlE NT OF HEALTH &. HUMAl....' SERVJ CES 	                        HQattn RcSDUr<:U   a~d   SIIMo;e3


    ."Sf-                                                                            Administration


                                                                                     Roekvifl ll. MO 20857




            TO: 	         mspector General

            FROM: 	       Administrator

            SUBJECT: 	    010 Draft Report: "Review of Ryan White Part B Funding and the
                          Payer-or-Lasl-Resort Requirement" (A-05- 10-00088)

            Attached is the Health Rcsour<:es and Services Administration's (HRSA) response to the
            D IG 's draft report, "Review of Ryan White Part B Funding and the Payer-or-Lasl-Resort
            Requirement" (A-OS-IO-OOO88). If you have any questions, please contact Sherry
            Angwafo in HRSA 's Office of Federal Assistance Management al (301) 443-9547.




            Attachment
                                                                                                    Page 2 of5




    Health Resources :md SCrvi~~s Administration's Comments on the OIG Draft 

 Rl'port- "'Rc\'icw of th(' Ryan White Part 8 Funding and th e Pay~ r-of.Last-Resorl            

                             Requirement" (A-05- IO-00088) 



The 11c~! th Resources :md Services Administration (IIRSA) apprccimcs the opportun ity
to respond to the above subject draft repon. HRSA 's comments regarding Ihe Office of
Inspec tor Gene ral's tOIG) li ndings and recommendations are as follows:

I'age 2: 01(; FINDIN(;S AND RF.CQ MME NIlAT IONS:

First paragraph:

Five of nillc Slates re viewed elaimed costs for prescript ions dispensed to individuals who
hnd olher health insunmce Ihal would have covered Ihe drugs, and tWO States el:limoo
costs for prescriplions dispensed (0 clients for whom the respective States did not
mllimnin adequate documentat ion of ADAI' eligibility. The States claimed unallowable
costs total ing 533.4 million because they did not have adequate euntrols to ensun:
cumpliance with the Part B payer-of-Iast resort req uirement or did nOI follow thei r
eligibility procedures.



Ryan White Part B Grantees were made aware of the legislative Paycr-of-I.ast-Rcsorl
requ ire ment usi ng several methods: I) the annual Ryan White Pan B Grant Application.
2) the conditions of grOnt award which accompany the Notice of Grant Award (NGA ),
and 3) A'>!:iurann::; and Certifications that must be signed by the Chief Elected Official or
dtosigne.: of each stale Port B Program . The langu age in the Assurances and
Ccrtilications is as fo llows: Grant funds are not utili7.cd to make payments for any item
or service to the extent that payment ha~ been made, or reasonably can be expected to be
madc. with respec t to that item or service

       • 	 under any state compensation progmm. insurance policy. federal or sial.:
           hcahh benefits program. or
       • 	 b> an entity that provide~ heahh services on a prepaid basis (exct'pt for a
           program administered by or providing the serv ices of the Indian 1·lealth
           Serl'ices).

Appropriate monitoring systems include contro ls to ensure compliance and prevent
una[]owabk costs and improper payments. III addi tion, monitoring systems are 10 indude­
policies that define di en t eligibili ty based on proof of HIV status and income level . The
ddinitions for allowable progrom activities and allowable program cos ts arc avaihlb[e to
gnmtecs. E,LCh Ryan White Part B Grantee is responsible for the de\<cloprnent of
approprinte monitoring systems at bot h Ihe state and local [e\"els.
                                                                                                 Page 3 of5




Second Paragraph:

HRSA could improve its oversight to ensure that States comply with the payer-of-Iasl­
resort and eligibility requirements. We identified best pmctices in two States that HRSA
could use to help States improve compliance Wi th the statutory requiremcntthat Ryan
White funds not be used when privatc health insurancc can reasonably be expected 10 p.ay
for an item or service.

HRSA Response:

When it is detennined that HRSA grantees or su b-grantees have misused or mismanaged
federal funds, the grantees are required to submit a corrective action plan to HRSA's
grants management officials stlting how and when the instance o f mismanagement Of
misuse will be corrected. Sometimes, this corrective action plan is pan of the A- 133
audit. The submission and complction of the corrective action plan may also become a
condition ofthc grant award. Fai lure to com pl y with this condition could result in dday
o r denial of the payment of grant funds. Situations of misuse and mismanagement of
grant funds can result in actions to collect m ismanaged funds. Thc integration of the
financial assessments into the Electronic Handbooks has provided HRSA with thc
capability to electronically monitor gnmtces' responses to conditions placed on grant
awards.

When grant funds are misused, for example. to pay for a service that is not allowed under
any federal grant program, project officers are typically th e first to learn about it through
thci r grant monitoring activities or during site visits. Consequently, thc project officer
then works closely with thc grantce stalT (and planning council/planning body, as
appropriatc) to prevent such misuse of funds in the future, while HRSA·s grants
management o fficials work with the granlee 10 recover the funding.

Tbird paragra ph :

Because HRSA has provided inconsistent guidance on eligibili ty recertifications, Stales
vary widcly in how rrequently and to what extent thcy recertify clicnt eligibility.

HRSA Respoll se:

Since these 01G audits occurred, HRSA has provided additional guidance on eligibihty
recert ification and established timcfrarnes for states to rcccniry clients. These
requirements are included in the Annual Ryan White Part B Application Guidance; and
are also pan of the program tenus and conditions, which accompany the NoticcofGrant
Award for Part BlAIDS Drug Assistance Program (ADAP).

On April 1.2011, the H IV/AIDS Bureau (HAB) released the Natiollal Monitoring
Standards for Part A and Part n Granlees. The National Monitoring S,amwrds are a
compilation of the minimum requirements for program and fiscal monitoring. and include
Title XXVI of the Public Health Service Act, 42 U.S.C. Section 300fT- I I et seq., also


                                               2
                                                                                                 Page 4 of 5




known as the Ryan Whi te HIV/AIDS Program legislation; the Code of Federal
Regulations; Federal, Department of Health and Human Services (HilS); and the Public
Health Servicc Grant Management policies (such as. the Office of Management and
Budget Circulars. and the HHS Grants Policy Manuals); HRSAlHAB policies and
guidelines; Part A and B Program Guidance Documents, Notices of Grant Award and
Cond itions of Award (which accompany the annual grant awards). DIG reports and
recommendations, Manuals and Guides issued by HRSA (such as the Part A and 8
Manuals).

States are required to recertify for ADAP e ligibi lity every 6 mon ths. The rCl;:ertifieation
processes are to include verification of income and the existence of other payer soun;es.
These requirements are detai led in the National Moni[oring Standards.

DIG Reeommend allons to URSA:

Require Slales 10 work wi th their State Medicaid agencies [0 identify Ryan Whi te clients
who obtain Medicaid coverage during the period of their Part B coverage.

Require Stales to process retroactive Medicaid claims for individuals eligible for
Medicaid al the lime Ryan White funds were used 10 pay thei r claims and credit the Ryan
White program for any Medicaid payment.

URSA Response:

HRSA concurs wi th these recommendations and already requires slates to work with
Medicaid agencies and develop syslems fo r "back-billing" of Medicaid for clients who
obtain coverage during their initial Ryan White HIVIA IDS Program coverage period.

Currently HRSA is enfon;ing the Payer-of.Last-Resort requirement through its existing
mon itoring systems. Plans arc currently being developed to highlight. by the use of
",'cbinars, techni cal assistance and conference presentations. state programs that created
eff~tive collaborations with Medicaid programs. HRSA will make the Payer-or-Lasl·
Resort and its models ofMcdicaid collaboration a focal point ofkey sessions al the 2012
Ryan While H1 V/AlDS Program AU Gran tees Meeting.

DIG Reco mmend a ti on to HRSA:

Ensure that rwuis ue not used to pay for drugs that are eligible for coverage by olher
Federal, State. or private health insurance by specifically:

        • 	 providing technical assislance 10 States on best practices for implementing the
            statutory payer-o r-Iast-resort mandate regarding pri vate insurance. such as
            contracting with an outside vendor [0 perform dala matches 10 identify clients
            with private health insurance and ini tiate recovery actions. and




                                                3
                                                                                            Page50f5




       • 	 deve loping and enforcing gu idance (0 help ensure that ADAP recertifications
           are perfonned consistently and unifonnly across States and are notlinli too to
           comparing ADAP eligibility with Medicaid eligibility files.

H.RSA Response:

HRSA concur'S with this recommendation and will continue its elTorts 10 provide
technical assistance and guidance to states regarding Paycr-of-Last-Resort.
Technical assistance is pro\'ided through a variety ofstratcgic approachcs and
disseminat ion strategies including individualized and on-site peer and expert
consultation, reverse site visits, ongoing consultativc relationships, nalional andlor
regional meetings, consultative meetings and conferences, conference calls and web­
casts, development of products and training curricula in hard eopy or web-based, email
list serves and other means of regular communications and infonnation dissemination.
HRSA has a technical assistance cooperative agreement in the area of fiscal management;
this agreement provides a nationwide approach for multifaceted infonnation
dissemination and direct provision of training and technical assistance thai will also
include mcthods for implementing the statutory Payer-of-Last-Resort requirement.

On Jul y 8. 201 1, HRSA released a $40 million funding oppo rtunity for disbursement of
ADAP funds to states that have established and reported wailing lists. As a condition of
the grant award, states will be required \0 use thc funds to address current ADAP waiting
lists and cosl-contairunent strategies, such as: modifying drog purchasing and
distribution methods; utilizing health insurance purchasing options; improving
coordi nation with Medicaid and Medicare Part D; instituting or improving client
eligibility recertification to assure Ryan White H[ V/AlDS Program funds are used as the
Payer-of-Last-Resort; implemcnting co-pays on a sliding fee scale basis; modifying the
ADAP fonnulary; and. modifying ADAP income eligibility requirements. As described
aix)\"e. on April I. 2011, HAB released the NUlicnu/ MonitQring SlUndurds for Pan A and
Part B Gran tces.




                                            •

